Audit of Payroll Distribution System
 California Institute of Technology
       Pasadena, California

      National Science Foundation
      Office of Inspector General


            March 30, 2007
            OIG 07-01-013
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            EXECUTIVE SUMMARY

        This audit report provides the results of our review of the Payroll Distribution
Confirmation system used by the California Institute of Technology (Caltech) to validate
salaries and wages charged to National Science Foundation (NSF) grants. In fiscal year
2005, Caltech had total Federal research and development grant expenditures of XXX
million, of which $74 million was directly funded by NSF. Of this amount, over $19
million was for labor costs directly charged to NSF grants.

       Our review disclosed that Caltech generally has a well established and sound
Federal grants management enterprise program. It has updated its Federal grants
management policies and procedures in recent years, has provided appropriate grants
management training to campus personnel, and has established an Institute Compliance
Program to provide an operational framework to assure adherence with Federal and
campus grants management policies and procedures. Review of 32 sampled employees
disclosed that Caltech’s Payroll Distribution Confirmation (PDC) reports generally
support the FY 2005 salary costs of $1.6 million directly charged to NSF grants.

        However, Caltech needs to enhance its PDC system to provide for accurate
reporting of voluntary committed labor effort devoted by faculty members on Federal
projects. Voluntary committed labor effort is defined as cost sharing that Principal
Investigators (PI) have willingly agreed to provide and have formally identified in their
grant proposals although the sponsoring agency has not required any mandatory cost
sharing of project costs. Our review of the 32 sampled employees disclosed that 3 of the
5 faculty members in the sample had explicitly pledged in their grant proposals to spend
from 1 to 20 percent of their time on 5 Federal awards, but did not report any of this
voluntary contributed effort in their PDC reports. The FY 2005 salary costs associated
with such unreported faculty effort is valued at approximately $100,000, or about 20
percent of the annual compensation received by these individuals.

        Without accurate reporting of voluntary committed labor effort, the Federal
Government has less assurance that PIs actually devote the level of effort promised in
their grant proposals to accomplish project objectives. In addition, the salary costs
associated with such unreported faculty effort does not properly get included in Caltech’s
organized research base, thereby resulting in greater indirect costs paid by the Federal
Government. Given that Caltech has 286 professorial faculty members that may have
similarly not reported their voluntary committed labor effort, the monetary impact could
be potentially significant.

        This weakness occurred because Caltech’s payroll distribution system does not
track and report actual employee activity/effort devoted to sponsored projects. Rather,
the system is only required to validate salaries and wages directly charged to Federal
grants. As such, Caltech has not established clear guidance and procedures to ensure that
PIs properly identify and track effort voluntarily pledged as cost sharing in its Federal
grant proposals.



                                            i
        Furthermore, Caltech needs to improve the timeliness of PDC report distribution
and certification. Of the 63 PDC reports reviewed for the 32 sampled employees, all of
the reports were certified late beyond the 150-day timeframe established by Caltech
policy. Specifically, in FY 2005, (a) Caltech published and distributed all reports an
average of 12.5 days beyond the established 120-day timeframe and (b) PIs certified 25
percent of the reports from 1 to 47 days beyond the 30-day established turnaround time.
Without timely certification, NSF has less assurance that such certifications are reliable
because PIs must remember as far back as 11 months to confirm employee activity on
sponsored projects.

        Recommendations were made to improve Caltech procedures to more accurately
report voluntarily contributed PI effort on sponsored projects and to provide timely
certification of PDC reports. Specifically, Caltech needs to establish clear guidance and
procedures for PDC tracking and reporting of cost-shared effort that faculty members
explicitly pledge in Federal grant proposals. Furthermore, Caltech needs to develop a
management plan to address its challenges for achieving timely PDC reporting.

        A draft audit report requesting comments on the findings and recommendations
was issued to Caltech. In general, the University agreed with the audit findings and
recommendations but stated that Caltech already had adequate management processes in
place to address the issue of timely PDC reports. Specifically, Caltech believes that it
can utilize its current established processes to improve the timeliness of PDC reporting.

         Caltech’s responses, once implemented, should address our audit
recommendations. NSF should work with the cognizant audit agency and/or Caltech to
ensure the University develops an acceptable corrective action plan to resolve each audit
recommendation. We have summarized Caltech’s responses and provided our comments
after each recommendation in the report. Also, Caltech’s responses to the draft report in
its entirety are included as Appendix B.




                                             ii
                              Table of Contents

                                                                         Page

EXECUTIVE SUMMARY                                                              i

INTRODUCTION                                                                   1

     Background                                                                1

     Objectives, Scope, and Methodology                                        2

FINDINGS AND RECOMMENDATIONS

     1. Payroll Distribution System Does Not Accurately Report                 6
        Faculty Effort on Federal Grants

     2. Distribution and Certification of Effort Reports Need To               19
        Be More Timely

     3. Other Audit Matters                                                    24

APPENDICES

  Appendix A:      Schedule of FY 2005 Questioned Salaries and Wages           27

  Appendix B:      Caltech Response to Draft Audit Report                      28


                                    ACRONYMS

  DOE                     Department of Energy
  NSF                     National Science Foundation
  OIG                     NSF Office of Inspector General
  OMB                     U. S. Office of Management and Budget
  ONR                     Office of Naval Research
  Caltech                 California Institute of Technology
  PDC                     Caltech’s Payroll Distribution Confirmation System




                                        iii
                                   INTRODUCTION

Background
        Approximately one third of the National Science Foundation (NSF) award funds
are provided for salary and wages, amounting to about $1.3 billion annually at
universities. Also, in recent years, there have been several civil settlements involving
overcharges of labor costs to Federal grants, amounting to millions of dollars at several
major universities, including some funded by NSF. Because of these legal actions and
the material amounts of labor costs paid from NSF awards, the Office of Inspector
General (OIG) is undertaking a series of reviews of the labor effort distribution systems
at NSF’s top-funded universities in order to assess the adequacy of internal controls to
ensure salary and wage costs claimed on NSF grants are properly managed, accounted
for, and monitored. This audit, involving the California Institute of Technology
(Caltech), is the first in the series of our planned reviews of such labor effort distribution
systems.

        Caltech, founded in 1891, is a small independent, privately funded university
devoted to research and teaching in science and engineering disciplines. The University
is located in Pasadena, California and has approximately 300 regular faculty members,
600 post-doctoral researchers, 1300 graduate students, and 900 undergraduate students.
Although small in size, it is ranked in the top 10 universities worldwide and has had 31
Nobel laureates. The academic departments at Caltech are divided into six divisions,
each of which offers several degree programs and a number of interdisciplinary
programs. Students are highly encouraged to participate in research, thus Caltech has one
of the highest percentages of alumni among all major universities who go on to receive a
Ph.D.

        Federal Government grant and contract funding constitute a major source of
Caltech’s annual revenues. Specifically, the University operates and manages the Jet
Propulsion Laboratory for the U.S. National Aeronautics and Space Administration;
which has an annual budget of approximately XXXXXXX and employed over XXXX
people in 2005. In addition, Caltech spent over XXXX million of Federal grant funds in
FY 2005; which included over $74 million of direct costs funded by NSF for research
and educational related projects. Approximately XXX million of the $74 million of NSF
grant costs were for salaries and wages for faculty, post-doctoral researchers, staff,
graduate students, and other employees who worked on research activities to carry out
Federal award objectives. As a research-intensive academic institution, Caltech faculty
members are awarded 12-month calendar year appointments and are generally required
only to teach one class during each of the 3 academic sessions. Some faculty members
only teach 2 of the 3 academic sessions; with no Caltech classes taught during the
summer months.

        Caltech’s management and oversight of Federal grant programs is shared between
the Office of Sponsored Research (OSR) and the Office of Post Award Administration.


                                               1
Primarily, OSR is tasked with pre-award grant activities and ensuring Caltech compliance
with Federal grant regulations and sponsoring agency requirements. As such, OSR
develops Caltech policies and procedures for Federal grants management and implements
appropriate training programs. The Office of Post Award Administration is responsible
for financial administration and monitoring of active Federal awards. Specifically, its
Office of Cost Studies is responsible for preparing, distributing, and tracking Payroll
Distribution Confirmation reports to provide certification of employee salaries and wages
directly charged to Federal awards.

        Within each Academic Division, Grant Managers are tasked with the
administration and oversight of sponsored projects to ensure compliance with Federal and
university policies and procedures. The Grant Managers typically assist and advise
faculty members and are responsible for ensuring that awards and their budgets are
created accurately in the University’s financial systems, award expenditures are
monitored on a monthly basis, charges to the awards are appropriate, and PIs confirm the
reasonableness of employee salary charges on PDC reports. Specifically, PIs have
primary responsibility for all aspects of the sponsored projects including approval of all
charges and ensuring that the research is conducted in accordance with the award terms
and conditions.

Objectives, Scope, and Methodology
        Audit Objectives. Our audit objectives were: (a) to evaluate whether Caltech
internal controls are adequate to properly manage, account for, and monitor salary and
wage charges to NSF grants in accordance with OMB and NSF grant requirements and
(b) to determine if salary and wage charges are allowable, allocable, and reasonable in
accordance with Federal cost principles and NSF grant terms and conditions.

        Scope and Methodology. The audit focused on Caltech’s Payroll Distribution
Confirmation (PDC) system and accordingly reviewed internal controls for ensuring that
labor costs charged to NSF (i) were actually incurred, (ii) benefited NSF awards, (iii)
were accurately and timely recorded and charged to NSF, and (iv) were for allowable and
allocable-type activities as required by Federal and NSF requirements. In addition, we
evaluated if the level of PI effort pledged in grant proposal and award documents was
actually contributed by the faculty member to accomplish award objectives.

        To address each of these control objectives, we engaged a statistician to provide
expert advice in selecting a statistical sample of employee salary records for testing. The
use of statistical tools and methodology will enable projecting our audit results to the
entire population of universities to be included in our planned reviews of payroll
distribution systems nationwide. However, due to the small statistical sample size of 32
employees tested, we are not able to make any projections to the total Caltech population
of labor costs charged to NSF grants. Specifically, the FY 2005 salary costs for the 32
sample employees tested amounted to XXXXXX and were supported by 63 PDC reports.
Our statistical sample was derived from a total population of 921 Caltech employees who




                                             2
charged XXXXX million1 of salaries to NSF grants during FY 2005. This population
excluded (a) any employee with total salary costs of $100 or less and (b) all salary
charges for undergraduate students. These amounts were excluded because of their small
dollar value and the difficulty in locating undergraduate students for personal interviews.

        We compared Caltech’s policy and procedures to Federal and NSF requirements
for allocating labor costs to Federal awards and interviewed Caltech personnel to gain an
understanding of the controls in place to ensure salary and wages charged to NSF awards
were reasonable and allowable. For each statistically selected salary record, we obtained
the following documentation to determine whether labor costs Caltech charged NSF
awards met the control objectives:

         •   PDC reports documenting 100 percent of each employee’s compensation
             allocated to sponsored and non-sponsored projects for each reporting period.

         •   Appointment letters or other documents supporting the approved annual salary
             for employees.

         •   Labor Distribution Module Reports detailing the actual salary and wages
             charged to sponsored projects and other activities for each employee during
             each reporting period.

         •   Award documents to determine whether the grant had any terms and
             conditions that would affect allowable labor charges to the award.

        To ensure that salary and wage costs charged to NSF awards were incurred and
benefited NSF awards, we corroborated the information on PDC reports by interviewing
the 32 sampled employees. We inquired whether (a) the labor charges documented were
actually incurred on projects and activities, (b) the approximate percentage of effort
actually worked on each sponsored project and/or activity was reasonably consistent with
NSF labor charges, and (c) the type of work performed on NSF projects was generally
consistent with the scope of the awards. We also interviewed selected Grant Managers to
determine procedures for processing and monitoring employee salary charges to Federal
grants. Additionally, we interviewed selected Principal Investigators (PI) to determine
the number of projects and personnel they were responsible for and their processes for
verifying work performance prior to approving and signing PDC reports.

        To confirm that faculty effort pledged in grant proposals was actually contributed
to accomplish grant objectives, we reviewed processes for reporting and tracking PI
effort and whether the associated salary costs were properly included in the research
organized base for computation of the University’s indirect cost rate. We reviewed
award documents for all Federal grants that a faculty member worked on during FY 2005
to determine the effort pledged on each project and compared this proposed effort to the

1
         Total FY 2005 salaries and wages charged to NSF grants totaled XXXXXX. However, after
eliminating all employees with total annual salary costs of $100 or less and all undergraduate student
wages, the adjusted population for sample selection had salary costs totaling XXXXXXX.


                                                     3
approximate percentage of actual effort worked on the project. In addition, we
determined whether and how Caltech tracked and documented PI effort on sponsored
projects when no faculty salary support was requested or reimbursed by the Federal
Government.

        To determine whether labor costs were accurately recorded and charged to NSF,
we compared the amounts in appointment letters or other documentation supporting
salaries and wages paid to the amounts recorded in the Labor Module Distribution
Reports for each individual in our selected sample. We recalculated salary and wage
costs charged to NSF projects by using the salary shown on supporting documentation
and apportioning it by the period of time represented on the PDC reports. We also
reviewed labor transactions to determine whether Caltech followed Federal, NSF, and
campus requirements on charging labor costs to NSF projects.

        We determined whether Caltech officials approved and signed effort reports in a
timely manner by comparing the date the PDC reporting period ended to the date the
reports were approved and signed. Timeliness was based on Caltech’s internal policy
requiring (a) the Office of Cost Studies to publish and distribute PDC reports within 120
days after the end of each 6-month reporting period and (b) PIs or a cognizant individual
to review and certify reports within 30 days of distribution.

        Also, we reviewed prior audit reports on Caltech’s Federal grants management
program performed by OMB Circular A-133 auditors, the University’s internal auditors,
and the Defense Contract Audit Agency (DCAA)2 to determine whether there were any
audit findings and recommendations on labor effort reporting. Specifically, we
interviewed cognizant audit staff and reviewed the working papers, as needed, to gain an
understanding of the scope and procedures used in any audits of Caltech’s payroll
distribution reporting system and/or University management of labor costs charged to
Federal projects. Typically, a review of the A-133 audit working papers is performed to
ascertain the actual audit scope and procedures used by the auditors in order to (i)
preclude any duplicative audit work and (ii) to determine the specific work performed on
the labor effort reporting system. However, at Caltech, we did not review the A-133
working papers because DCAA reviews the working papers as part of their onsite audit
efforts. Nevertheless, we did meet with the A-133 auditors to discuss their overall audit
scope and procedures used for reviewing salaries and wages charged to Federal awards
and the labor effort reporting system.

        Finally, we met with senior management officials at the Office of Management
and Budget (OMB) and the Office of Naval Research (ONR), Caltech’s cognizant audit
agency, to discuss Federal requirements for payroll distribution reporting systems. In
particular, emphasis was directed to the required reporting of PI effort voluntarily
committed to Federal projects. Similarly, we met with NSF officials to discuss the
Foundation’s requirements for reporting and tracking of PI effort.


2
         The Defense Contract Audit Agency performs audit work for the Office of Naval Research, who is
Caltech’s cognizant Federal audit agency.


                                                  4
       We performed onsite audit work at Caltech for a 3-week period in July 2006 and
completed the remainder of our audit work through phone interviews, emails, and
documentation requests through December 2006. Our audit was conducted in accordance
with the Comptroller General’s Government Auditing Standards, June 2003, and
accordingly included such tests of accounting records and other auditing procedures, as
we considered necessary, to fully address the audit objectives.




                                          5
                   FINDINGS AND RECOMMENDATIONS

1. Payroll Distribution System Does Not Accurately Report Faculty
   Effort on Federal Grants
         Federal regulations require a payroll distribution system that will “reasonably
reflect the activity for which individuals are compensated by the institution.” The system
must encompass the time and effort expended by employees on both sponsored projects
and all other activities on an integrated basis. Specifically, the labor effort reports must
include employee activity/effort devoted to sponsored projects associated with (1)
salaries and wages directly charged to the projects, (2) mandatory cost sharing provided
on such projects, and (3) voluntary committed labor effort explicitly pledged in the
subject project proposals. In addition, when sponsored projects do not include any paid
faculty or senior researcher labor effort, an estimated amount must be computed and
included in the university’s organized research base.

        Our review of 32 statistically sampled employees disclosed that Caltech’s Payroll
Distribution Confirmation (PDC) reports generally support the FY 2005 salary costs of
XXX million directly charged to NSF grants. However, the PDC system does not capture
the actual activity/effort that faculty members have either voluntarily contributed or
pledged to working on such projects at no cost to the Federal Government. The PDC
reports only provide reporting and certification of faculty salaries that are charged
directly to sponsored projects. Five of the 32 sampled employees covered in our review
were faculty members, of which 4 (80%) did not report any labor effort on 8 of their 23
Federal grants for which they received XXXX million in funding. Five of these awards
included $100,000 of voluntarily committed cost sharing of effort that was contributed by
3 of the faculty members, but not reported in the PDC reports as required. Specifically,
these 3 PIs had explicitly pledged effort in their 5 grant proposals, ranging from 1 to 20
percent, but they did not properly identify and report this effort in their PDC reports. In
addition, for the 3 remaining grants, Caltech did not estimate a dollar amount for PI effort
that Federal guidance requires to be included in the organized research base.

        This occurred because Caltech does not have adequate policy and procedures for
identifying and tracking labor effort voluntarily pledged by PIs in grant proposals in its
PDC system. Without accurate PI activity reports, Caltech cannot validate to the Federal
Government that the faculty members devoted the level of effort promised in grant
proposals to accomplish research objectives. In addition, such unreported PI effort on
sponsored agreements results in a higher negotiated Federal indirect cost rate and the
Federal Government assuming increased indirect costs on Caltech awards.

OMB Requirements for Payroll Distribution System

        OMB Circular A-21, Cost Principles for Educational Institutions, require
certification of labor effort/activity contributed by employees on Federal grants.
Specifically, paragraph 10.b.(2)(a) states that a payroll distribution system is required that


                                              6
will “. . . reasonably reflect the activity for which the employee is compensated by the
institution; and encompass both sponsored and all other activities on an integrated
basis...” (emphasis added). Such a system must provide for after-the-fact confirmation of
employee activity allocable to each sponsored agreement and each of the categories of
activities and functions to which they are allocable. The payroll distribution system will
include salaries charged directly to sponsored projects as well as salary-related cost
sharing contributed by employees.

        In addition, OMB Circular A-21 verification requirements for PI effort are
discussed in a January 2001 OMB Clarification Memorandum.3 The subject
Memorandum provides additional Federal guidance for determining if faculty effort
devoted to grants should be reported as voluntary “committed cost sharing” versus
“uncommitted cost sharing” and the proper treatment of such PI effort based on such
determination. Specifically, the OMB Memorandum clarifies that faculty effort on
organized research includes: (i) PI salary and wages directly charged to sponsored
projects, (ii) PI effort required as mandatory cost sharing, and (iii) PI effort pledged and
quantified as “voluntary committed cost sharing” in a proposal and/or award. Such
faculty effort on organized research, including “voluntary committed cost sharing,” must
be separately captured and reported for cost accounting purposes and included in the
organized research base4 used for computing the university’s Federal indirect cost rate.
However, “voluntary uncommitted cost sharing,” which is defined as faculty-donated
time over and above that which is explicitly committed and budgeted for in a sponsored
agreement, does not have to be reported in the payroll distribution system or included in
the organized research base.

        Furthermore, the OMB Memorandum states that some level of faculty effort is
required on most Federal research grants5 and that such committed faculty effort, whether
paid or unpaid by the Federal Government, should not be excluded from the organized
research base by declaring it to be “voluntary uncommitted cost sharing.” As such, when
a sponsored agreement “shows no faculty (or senior researchers) effort, paid or
unpaid, an estimated amount must be computed by the university and included in
the organized research base.” Clearly, the OMB Clarification Memorandum indicates
that the Federal Government expects some level of faculty effort on most proposals and
resultant awards to accomplish project objectives.

3
        OMB Memorandum M-01-06, dated January 5, 2001 Clarification of OMB A-21 Treatment of
Voluntary Uncommitted Cost Sharing and Tuition Remission.
4
          The organized research base is used as the denominator for computing the Federal indirect cost
rate applied to all sponsored projects. As such, a smaller organized research base will result in a higher
indirect cost rate, thereby allowing the institution to recoup a greater portion of its indirect costs on Federal
grants. Paragraph B.1.b., Definition of terms, of OMB Circular A-21 states that “Organized research
means all research and development activities of an institution that are separately budgeted and accounted
for.”
5
         The OMB Memorandum states that some types of Federally-funded research projects, such as
grants for equipment and instrumentation or student augmentation and/or training, do not typically require
committed faculty effort.



                                                        7
        The OMB Memorandum re-iterates that Circular A-21 requires a payroll
distribution system to “encompass both the sponsored and all other activities on an
integrated basis” and that “significant changes in the corresponding work activity must be
identified and entered into the payroll distribution system.” Thus, when a faculty
member reduces the “level of activity dedicated to other institutional responsibilities in
order to shift his/her activities to organized research activities, the institution must reflect
this reduction in the payroll distribution system (as an increase to the research effort
component) and in the F&A6 proposals.”

       In addition, in order to ensure that PIs have sufficient time to devote to their
research activities, NSF requires PIs to identify in their grant proposals all of their current
and pending research projects. Specifically, the NSF Grant Proposal Guide7 (GPG)
requires identification of all projects and activities requiring a portion of the PI’s time,
including the proposed award. The faculty member must report the person-months
committed to each current and pending research project, regardless of the source of
funding (e.g. Federal, State, public or private foundations, industrial or other commercial
organizations, etc.) or whether any salary support is received from the sponsored projects.
Such information is used by NSF in determining the reasonableness of the PI’s time to be
provided to the proposed NSF project in light of the faculty member’s existing
commitments to other research activities.

Caltech’s Payroll Distribution System Does Not Reflect Faculty Effort Voluntarily
Committed To Sponsored Projects

        Caltech’s Payroll Distribution Confirmation (PDC) system provides for reporting
and certification of only salaries that are directly charged to each Federally-sponsored
project on which an employee works. However, it does not verify that the level of effort
voluntarily promised by PIs in grant proposals is actually contributed.

        Specifically, our review of 32 statistically selected employees disclosed that the
PDC reports generally supported the XX million of FY 2005 salaries and wages directly
charged to NSF grants. As such, for the 5 PIs included in our sample, we found that the
PDC reports certified the salaries directly charged to 15 of the 23 Federal grants on which
the faculty members worked. However, for the remaining 8 grants8 or 35 percent where
no PI salary was directly charged to the awards, Caltech had no labor effort
documentation to support that any faculty time or effort was expended working on these
sponsored projects. These 8 grants involved 4 (80%) of the 5 PIs reviewed in our sample
and had total Federal funding through FY 2005 of almost XXXX million.9 In particular,


6
         The F&A (Facility and Administrative) proposal is a synonymous term for Federal indirect cost
rate proposal.
7
        Chapter II, Paragraph C.2.h. of the NSF Grant Proposal Guide.
8
        Five of the 8 Federal grants with no reported PI effort were NSF grants.



                                                    8
for 5 of these 8 grants or 63 percent, Caltech could not verify that 3 of the 4 PIs had
provided the level of effort explicitly committed in their original grant proposals.
Specifically, these 3 PIs had (i) pledged effort voluntarily ranging from 15 to 20 percent
in the narrative portion of 3 grant proposals and (ii) included about 4 percent direct salary
reimbursement of XXXXX in the remaining 2 grant proposal budgets. As a result,
approximately $100,000 of voluntary committed cost sharing of PI effort on these 5
sponsored projects was not supported by PDC documentation as required.

        In addition, for the remaining 3 of the 8 grants without faculty salary support,
Caltech did not estimate an amount for PI effort to include in the organized research base,
as required, for computing the Federal indirect cost rate. These 3 grants had total funding
of $2.6 million through FY 2005. Details on the 8 Federal grants with no PI salary
charges follow:

      Schedule of Federal Grants Lacking Required Documentation of Faculty Effort

                                                                              Salary Costs                       Total Funding
                                                                Voluntarily    Associated                       for Grants With
                                                                Pledged PI        With       Direct PI Salary    No Estimated
                                                                 Effort in     Voluntarily     Included in         Amount in
          Federal                              Total Funding     Proposal      Pledged PI       Proposal           Organized
     PI   Sponsor        Grant Number            thru FY 05      Narrative        Effort         Budget         Research Base



     #1     NSF        xxxxxxxxxxxxxxxx             $450,000                                                          $450,000
            NSF        xxxxxxxxxxxxxxxx             $150,003       20%        XXXXXXXXX


     #2     DOE        Xxxxxxxxxxxxxxxx           $11,861,000      20%        XXXXXXXXX



     #3     NSF        Xxxxxxxxxxxxxxxx             $675,000                                                          $675,000



     #4     NSF        Xxxxxxxxxxxxxxxx            $1,476,795                                                        $1,476,795
                                                                                             . XXXXXXXXX
            NSF        Xxxxxxxxxxxxxxxx             $688,337

          Air Force    Xxxxxxxxxxxxxxxx             $300,000       15%        XXXXXXXXX
                                                                                              XXXXXXXXX
           Army        xxxxxxxxxxxxxxxx             $264,411

                      Only grant with salary
                                    10
    #5                      support


                                                                  Aver.
          TOTAL            8 grants            $15,865,546        19%         XXXXXXXXX       XXXXXXXXX           $2,601,795

9
         The $15.9 million (see schedule of grants above) was the total project funding awarded and
budgeted for in cost categories such as post-doctorate and graduate student salaries, equipment, travel,
material and supplies, etc. The Department of Energy grant, with funding of $11.9 million, was a
continuing grant that was renewed every 2 or 3 years, thus had an award period from 1988 through 2005.
10
         PI # 5 had only one Federal grant in FY 2005, which was an NSF project with part of his salary
charged directly to the project. The PDC reports accurately reflected the portion of the PI’s actual labor
effort charged to the sponsored project.


                                                         9
Incomplete Committed PI Effort Reported on NSF Grant Proposals

         Additionally, Caltech did not always properly report effort that the PI had
actually committed to research projects and activities in the Current and Pending Support
information required to be submitted with NSF grant proposals. We found that all 5 PIs
(100%) included in our sample did not either accurately report the person-months
committed to all projects/activities and/or did not include the current proposed NSF
project in their proposal submissions. Specifically, for the 11 NSF grant proposals11
reviewed, four of the 5 PIs did not include the currently proposed NSF project in 10 of
the 11 grant proposals or 91 percent. Furthermore, three of the 5 PIs left blank the
section of the proposal form requesting the PI to identify the person-months of effort that
they had (i) committed on each of their current research projects and (ii) proposed to
work on all pending projects on their 7 NSF grant proposals. Finally, while we found
that one of the 5 PIs did report committed person-months on both his ongoing research
projects and his currently proposed project, the individual mistakenly did not include
fellowship funding from a private organization for 3 to 6 months of paid research effort
annually. As a result, without complete information on a PI’s other ongoing or pending
awards, NSF officials could not determine the reasonableness of a PI’s proposed time
commitment to achieve objectives on the proposed NSF grant and/or to evaluate if the
individual had adequate time to devote to the newly proposed project in relationship to
the individual’s other time commitments. The following table summarizes the results of
our review:

      Schedule of PI Reporting of Current and Pending Award Support Information
                             on NSF Proposal Submissions

      PI      # of NSF          Person-Months              Current                     Comments
               Grant            Committed on            Proposed NSF
              Proposals          All Projects               Grant
                                   Reported               Reported

      #1            3                  Yes                     No
      #2            1                  No                      No
      #3            1                  No                      No
      #4            5                  No                      No
      #5            1                  Yes                     Yes            Fellowship funds not reported.


     Total         11




11
        Three of the 14 NSF grants were originally awarded to another university and transferred to
Caltech when the PI moved. As a result, these 3 grants were not included in our analysis because the grant
proposals were not submitted by Caltech.


                                                   10
Specific Examples of Inaccurate Reporting of PI Committed Effort

       For 2 of the 5 PIs reviewed, the following details are provided to illustrate that
Caltech’s PDC reports support only PI salary costs directly charged to sponsored projects
and not the actual level of faculty effort/activity devoted to working on such projects.

•    One faculty member (PI # 2 per chart on page 9) had both a NSF grant and a
     Department of Energy (DOE) grant 12 to fund a major physics research laboratory
     with about 33 employees, of which one-third were post-doctorate scholars, one-third
     were graduate students, and the remaining one-third were senior scientists or
     technicians. The laboratory has been funded by both agencies for many years with
     the grants being renewed about every 2 to 3 years. During FY 2005, the NSF annual
     funding was $1,270,000 and the DOE annual funding averaged about $430,000.
     During our interview, the PI stated that with regards to his research time and effort,
     he devoted approximately 50 percent of his time to the NSF grant objectives and 50
     percent to the DOE project objectives.

          However, because the PI only charged salary to the NSF grant, the PDC reports
     allocated 17 percent of the faculty member’s salary to the subject NSF award and the
     remaining 83 percent to a general category called non-sponsored projects, which was
     the portion of salary funded by the University. As such, Caltech did not have any
     PDC documentation to evidence that the PI had actually performed the 20 percent
     effort that he had explicitly pledged in the DOE grant proposal narrative.13 In
     accordance with OMB’s January 2001 Clarification Memorandum, the 20 percent PI
     effort/activity on the DOE grant should have been identified, reported, and tracked as
     “voluntary committed cost sharing” in the PDC system. (The additional PI effort
     devoted to both the NSF and DOE grants is considered to be “voluntary uncommitted
     cost sharing” and is properly not required by OMB regulations to be separately
     tracked and reported.)

           In addition, contrary to NSF requirements, the PI left blank the committed
     person-months for the sponsored projects and activities listed in the Current and
     Pending Support information section of his NSF grant proposal submission. The
     listing included 6 projects/activities for which he was receiving current support and 2
     items that were pending support. Without the reporting of committed person-months,
     NSF did not have the information required to determine the reasonableness of the
     proposed PI effort to achieve project objectives or to evaluate if the PI had sufficient
     time to devote to the proposed project given the individual’s time commitments to all
     other projects and activities.


12
       The laboratory was funded by NSF grant xxxxxxxxxxxxxxxx and DOE grant xxxxxxxxxxxxxxxx
xxxxxxxxxx.
13
        Caltech proposal for renewal for DOE grant xxxxxxxxxxxxxxxxxxxxxxxxxxx for the period from
January 1, 2003 to December 31, 2005.


                                                11
•    Another faculty member (PI # 4 per the chart on page 9) had 5 NSF grants, 1 Army
     grant, and 1 Air Force grant for computer network research, infrastructure, and
     education. The PI stated that he devoted 50 percent of his time to the 5 NSF grants,
     20 percent to the Army and Air Force grants, and 30 percent to Caltech teaching and
     administrative responsibilities. However, the PDC reports only allocated and charged
     a total of 18 percent of the PI’s salary to 3 of the 5 NSF grants; with the remaining 82
     percent salary allocated to non-sponsored projects funded by the University.

          Thus, Caltech is not able to provide PDC documentation to evidence that the PI
     devoted the 15 percent effort that he explicitly pledged in the narrative portion of the
     Air Force grant 14 proposal. Pursuant to the OMB Clarification Memorandum,
     Caltech should have separately tracked and reported this 15-percent pledged PI effort
     as “voluntary committed cost sharing.” Furthermore, Caltech is not able to provide
     PDC reports documenting that the PI devoted any effort to another NSF grant and an
     Army grant,15 although XXXXX of salary support was requested and included in the
     approved proposal budgets and awards. While the PI stated that he worked on these 2
     grants during our interview, the PDC reports did not include any effort/activity
     because the PI did not choose to charge any salaries directly to these projects during
     FY 2005. In addition, for the remaining NSF grant where the PI did not charge any
     salary cost to the award, Caltech did not estimate a dollar amount for the PI’s effort
     devoted to this award and include such an amount in the organized research base as
     required.

          Finally, contrary to NSF requirements, the PI did not report in the Current and
     Pending information section of his 5 NSF grant proposal submissions the person-
     months committed to each of his sponsored projects and/or activities. For example,
     on NSF grant proposal xxxxxxxxx, such required information was left blank for the 6
     current and 1 pending sponsored projects that were listed.

Inaccurate Reporting Results in Federal Government Inability to Validate Faculty Effort
on Federal Grants and Potential for Inflated Indirect Cost Rates

        Without a payroll distribution system that reflects 100 percent of the actual
activity/effort that PIs spend working on sponsored projects and other activities on an
integrated basis, the Federal Government has less assurance that faculty members are
providing the level of effort explicitly committed in grant proposals and/or awards to
accomplish project objectives and is potentially assuming an increased share of Caltech
indirect costs. The sponsoring agency expects faculty members to work the amount of
time that the individuals have agreed to contribute in grant proposals. It is important for
the Federal Government to be able to validate that a sufficient level of PI effort was
committed to a sponsored project that is commensurate with the complexity and nature of


14
        The Air Force grant No. is xxxxxxxxxxxxxxxxxxxxxxxx
15
        The NSF grant No. is xxxxxxxxxxx and Army grant No. is xxxxxxxxxxxxxxxxxxxx


                                                   12
the research and dollar amount of grant funding. As such, accurate labor effort reports
are essential to document both Federally-funded and voluntary committed effort devoted
by faculty members to sponsored projects.

         Secondly, unreported PI effort results in increased indirect costs paid by the
Federal Government because Caltech must pay for the indirect costs associated with any
specific commitment of PI effort voluntarily pledged in grant proposals. Such voluntary
effort is considered by the Federal Government as “cost sharing” on the part of the
institution. Thus, the portion of actual devoted PI effort/activity that is not correctly
identified and reported in the faculty members’ PDC reports as “voluntary committed
cost sharing” is improperly excluded from Caltech’s organized research base. Since the
Federal indirect cost rate is computed by dividing total Caltech indirect costs by the
organized research base, the improper exclusion of such costs from the base would result
in a higher negotiated Federal indirect cost rate.

        Accordingly, for the 5 PIs reviewed, we found that at least $100,000 of additional
faculty salary costs for 3 of the faculty members should have been included in Caltech’s
organized research base for FY 2005. As previously discussed (see Schedule on page 8),
the $100,000 is the salary costs associated with the effort explicitly pledged by these 3
PIs in their grant proposals and/or award budgets for 5 of the 8 grants that did not have
any faculty salaries directly charged to the projects. Given that the $100,000 of salary
associated with the unreported effort for the 3 PIs constituted (i) 60 percent of the 5 PIs
reviewed and (ii) 20 percent of their total annual compensation, the total dollar amount of
unreported PI effort that was not properly included in Caltech’s organized research base
for FY 2005 could be significant for the total universe of 286 professorial faculty
members.

        Furthermore, for the remaining 3 of the 8 grants without faculty salary support,
Caltech did not compute an estimated dollar amount for PI effort to include in the
organized research base as required. Similarly, the total dollar value of this estimated
amount not properly included in the organized research base for the entire universe of
Caltech faculty members could potentially have been significant given that 51 percent or
142 of the 279 NSF grants in FY 2005 did not have any faculty salaries charged directly
to the projects. These 142 NSF grants had total expenditures of over $17 million or 23
percent of total Caltech expenditures on NSF grants during the fiscal year.

        Our analysis disclosed that approximately XX million of salaries associated with
unreported PI effort would have to be excluded from the FY 2005 organized research
base in order to reduce the Federal indirect cost rate by one-half percentage point. For
every one-half percent reduction in Caltech’s FY 2005 indirect cost rate of 59.3 percent,
the Federal Government could have reduced its reimbursement of Caltech indirect costs
by approximately $600,000.




                                            13
Factors Contributing to Inaccurate Reporting of Committed PI Effort

        Caltech has not established clear and comprehensive policy and procedures for
addressing how PI effort committed in Federal grant proposals and awards should be
identified and reported in the PDC system to fully comply with both Federal and NSF
requirements. The major factors contributing to these procedural weaknesses follow:

•   PDC System Needs to Track Voluntary Committed PI Activity– While Caltech has a
    manual “off-line” system to track mandatory and voluntary cost sharing on sponsored
    projects, the PDC system is not used to properly document and certify any salary-
    related cost sharing of labor effort on such sponsored projects. Specifically, the PDC
    system does not capture and report any mandatory cost sharing of labor effort or
    voluntary committed cost sharing of PI effort explicitly pledged in Caltech grant
    proposals. In addition, Caltech does not have procedures addressing how PI effort
    should be documented in the PDC system when the faculty member does not directly
    charge salary for effort originally committed and included in proposal budgets.

         This occurred primarily because Caltech has not initiated actions to ensure that
    the additional Federal guidance provided in the January 2001 OMB Clarification
    Memorandum regarding the proper reporting and treatment of committed PI effort on
    sponsored agreements was incorporated into the University’s grant management
    policies and procedures. As such, Caltech’s PDC policy does not mention or refer to
    the OMB Clarification Memorandum. Similarly, Caltech’s policy on Cost Sharing on
    Sponsored Projects also lacks clear guidance on how salary-related cost sharing
    should be identified, reported, and tracked for cost accounting purposes. While the
    policy provides definitions for both committed and uncommitted cost sharing and
    refers to the OMB Clarification Memorandum, it does not specifically discuss when
    PI effort devoted to sponsored projects should be reported as “voluntary committed”
    versus “uncommitted cost sharing” and how or whether such PI effort voluntarily
    contributed at no cost to the Federal Government should be captured and reported in
    the PDC system.

          Consequently, without clear guidance, Caltech generally considered and
    declared all PI effort, not directly reimbursed by Federally-sponsored projects, to be
    “voluntary uncommitted cost sharing” and not subject to PDC reporting and
    certification. As such, Caltech did not establish a process to compute and include an
    estimated amount for PI committed effort in the organized research base when
    sponsored projects showed no paid faculty salary. Also, it did not have any
    procedures to identify situations where the PI originally committed a certain amount
    of effort in his grant proposal submissions but subsequently decided not to charge any
    salary directly to the sponsored projects. If Caltech cannot document that such
    committed PI effort was actually provided, then Federal regulations require Caltech to




                                            14
     obtain sponsoring agency approval in advance when there is more than a 25 percent
     reduction in PI time16 devoted to the grant.

           Furthermore, Caltech did not treat PI effort pledged in the narrative portion of
     grant proposals as “voluntary committed cost sharing.” However, such treatment of
     PI effort does not recognize that many Federal agencies, including NSF, incorporate
     the entire grant proposal by reference into its grant terms and conditions and results in
     the entire proposal being a part of the legally-binding contractual agreement between
     the parties. Thus, NSF and other sponsoring agencies have an expectation that
     Caltech will fulfill such cost sharing commitments voluntarily pledged in its grant
     proposals and that such commitments are necessary to accomplish the award
     objectives. As a result, Caltech must be able to demonstrate to the sponsoring agency
     that such cost sharing of PI effort has been provided and properly classified and
     documented in its PDC system.

           In addition, Caltech did not have adequate procedures to ensure accurate
     reporting of committed PI effort in the Current and Pending Support information
     required to be submitted in NSF grant proposals. Since the PDC system only
     captured faculty salaries charged directly to sponsored projects, the University did not
     have a documented data source for reporting the committed person-months for each
     sponsored project in the Current and Pending Support information. Furthermore,
     there were no specific written procedures requiring Caltech grants management staff
     to specifically review such information for completeness before submission to NSF.

•    Formal Policy and Procedures Needed for Internal Evaluation of PDC System -
     While Caltech’s Internal Audit Office performed an independent evaluation of its
     payroll distribution system as required by OMB A-21 regulations, the audit did not
     identify that the PDC system inadequately reported the actual effort/activity devoted
     by PIs on Federal grants. This occurred because Caltech’s PDC policy did not
     include any formal procedures for the required evaluation. Thus, there was no
     guidance which clearly defined the required scope and objectives for evaluating the
     PDC system to ensure its effectiveness and full compliance with OMB Circular A-21
     standards. As such, while the internal audit included a review of campus compliance
     with Caltech’s own PDC policy and procedures, it did not thoroughly evaluate
     whether the system complied with all Federal requirements.




16
         Section .25(c)(3) of OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
requires recipients to request prior approval from Federal awarding agencies for revisions in budget and
program plans when there is “. . . a 25 percent reduction in time devoted to the project by the approved
project director or principal investigator.”


                                                   15
Conclusion

          Our review disclosed that Caltech generally has a well established and sound
Federal grants management enterprise program. Its PDC system generally supports
employee salaries and wages directly charged to Federally-sponsored projects. However,
it is critical for the Federal Government to have accurate faculty member activity reports
to fully understand and validate that PIs have provided the level of effort committed in
grant proposals and necessary to perform and manage the research conducted under its
awards. Therefore, PI activity reports must be more than a confirmation of an
individual’s salary costs directly charged to awards. They must also reasonably
document the level of activity contributed by the faculty members working on sponsored
projects; including any voluntary committed cost-shared labor effort. As such, we
believe that it is imperative for Caltech to re-evaluate its current procedures for
implementing Federal requirements for certification of PI activity on sponsored projects
to ensure full compliance with the overall intent of OMB Circular A-21 regulations, the
January 2001 OMB Clarification Memorandum, and NSF grant requirements.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

1.1    Work with Caltech to establish an internal control structure that provides for a
       payroll distribution system that reasonably reflects the actual effort/activity
       devoted by faculty members on sponsored agreements. At a minimum, Caltech
       should develop clear guidance and procedures to:

       a. Ensure the PDC system reasonably reflects the actual activity on sponsored
          projects for which a faculty member is compensated. This should include
          proper reporting of actual PI time and effort worked on sponsored projects
          where:

           •   Voluntary committed cost sharing of effort was explicitly pledged in grant
               proposals.

           •   PI salaries were specifically proposed and included in the award budget,
               but never charged directly to the sponsored project.

       Caltech Response

       Caltech agreed to revise its policy to make clear pledges of time in the narrative
       of a proposal will be considered voluntary committed cost sharing whether or not
       reflected in the budget or award document. In addition Caltech agreed to



                                           16
strengthen its controls to reflect and report salaries that are specifically proposed
but not charged to the project.

OIG Comments

Once implemented, Caltech’s response should address our audit recommendation.

b. Establish a methodology for reasonably estimating and calculating an amount
   of “committed cost-shared” PI effort to be reported in the PDC system for
   sponsored projects with no PI salary reimbursements. Ensure such calculated
   amounts are supported by adequate documentation and included in the
   organized research base for computing the Federal indirect cost rate.

Caltech Response

Caltech agreed to establish a methodology to identify voluntary committed cost
sharing where Caltech receives no salary reimbursement from the Federal
Government. Furthermore, Caltech has submitted a revision to the FY 2005
incurred cost proposal to ONR to include an imputed salary calculation.

OIG Comments

Once implemented, Caltech’s response should address our audit recommendation.

c. Establish procedures and guidance to ensure that PI committed person-months
   is accurately reported for all projects and activities, including the currently
   proposed grant, in the Current and Pending Support information submitted in
   NSF grant proposals as required by Chapter II, Paragraph C.2.h. of the
   Foundation’s Grant Proposal Guide.

Caltech Response

Caltech agreed to strengthen its internal procedure for the review of NSF grant
proposals by the Office of Sponsored Research to give greater recognition to the
importance of checking the completeness and accuracy of the information
included in the Current and Pending Support section of the proposal. In addition,
the topic will be presented at a Sponsored Research Forum so that grant managers
in the academic divisions will be made aware of the importance of this section of
the application.

OIG Comments

Once implemented, Caltech’s response should address our audit recommendation.




                                      17
d. Establish a formal requirement for an independent evaluation of the PDC
   system to ensure its effectiveness and full compliance with OMB, NSF, and
   Caltech standards. Such a requirement should include procedures to ensure a
   systematic review of the payroll distribution system is performed to identify
   reasons for any deficiencies and to make appropriate recommendations,
   identify the specific office responsible for performing the evaluation, and how
   often such an evaluation should be conducted.

Caltech Response

Caltech concurred with audit recommendation and has revised their policy.

OIG Comments

Caltech’s proposed corrective action appears responsive to the audit
recommendation.




                                    18
2. Distribution and Certification of Effort Reports Need To Be More
Timely
         Federal requirements provide that payroll distribution reports be signed and
approved by the employee or an official who is in a position to know whether the work
was performed. OMB Circular A-21 requires such reports to represent 100 percent of an
individual’s activity and provide an after-the-fact confirmation or determination that the
reports provide a reasonable estimate of the activity for which the employee is
compensated. Although Federal and NSF requirements do not specify when a payroll
distribution report should be completed, university officials should provide the
after-the-fact confirmation as close to the end of the reporting period as possible to ensure
its reliability and avoid any concerns with such reports.

        To ensure timely review and approval of its PDC reports, Caltech has established
(i) a 120-day timeframe for compiling and distributing its reports for each 6-month
reporting period and (ii) a 30-day turnaround requirement from the actual distribution
date for returning the reports. Caltech established the 120-day timeframe for report
compilation and distribution to allow 90 days for processing any cost transfers of Federal
grant expenditures pursuant to the University’s Cost Transfer policy and another 30 days
for data validation and report compilation. The 30-day turnaround time was chosen
because it provided the PIs a reasonable amount of time to complete and return the PDC
reports. Establishing a combined 150-day time limitation is an important internal control
procedure because it helps Caltech ensure a more reliable review and certification
process.

        Our review disclosed that Caltech PIs, who appropriately have first-hand
knowledge of actual employee effort devoted on NSF projects, signed and approved the
PDC reports. Furthermore, Caltech has made concerted efforts to ensure that all PDC
reports were signed by the PIs and returned since the system was first established in
October 2002. However, Caltech needs to direct their efforts to improving the timeliness
of PDC publication, distribution, and certification. Specifically, we found that all 63
PDC reports for the 32 employees in our statistical sample were certified late subsequent
to Caltech’s established 150-day timeframe. The delay was primarily caused by Caltech
not compiling and distributing the PDC reports within its established 120-day timeframe.
Although Caltech’s own statistical reports and a May 2005 internal audit report noted
similar PDC timeliness issues, it has not taken the necessary management actions to
address its challenges for timely PDC reporting.

        Specifically, for each 6-month reporting period, the Office of Cost Studies
requests the Office of Information Technology to compile and publish the PDC reports
after the Academic Divisions have had the opportunity to process any cost transfers
within a 120-day period after the end of the reporting period. When the reports are
published, the Office of Cost Studies manually sorts and distributes the reports to the
designated PDC Contact Persons in the Academic Divisions. However, in FY 2005, the
PDC reports were published and distributed 1 day late for the first reporting period and
24 days late for the second reporting period, or an annual average of 12.5 days late.


                                             19
        After receipt by the Academic Divisions, the PDC Contact Persons are
responsible for distributing the reports to the PIs for review and approval and collecting
and returning the certified reports to the Office of Cost Studies within 30 days of the
actual distribution date. According to established PDC procedures, the Office of Cost
Studies will send Reminder Letters to the Contact Person, or other designated higher-
level officials if the PDC reports are not returned within specified timeframes. However,
contrary to the established 30-day turnaround time, the PIs approved and signed 16 of the
63 reports late, or 25 percent; ranging from 1 to 47 days late. It is noted, however, that of
the 16 late reports, 12 were for employees working on the same NSF grant where the PI
signed the PDC reports only 1 day late.

        The chart below summarizes the amount of time beyond the combined 150-day
requirement that Caltech took to sign and approve the 63 sampled PDC reports. The
chart provides a breakdown of late reports by the 120-day distribution timeframe and the
30-day turnaround timeframe.

                         Schedule of Late FY 2005 PDC Reports

                                                                   Beyond Combined 150-Day Timeframe
    Days Late                            Beyond 30-day
                    Beyond 120-day                                              Associated
     Beyond                             Timeframe for PI                                     % of Salary
                     Timeframe for                             # of Reports      Salary
   Established                             Review and                                        Costs Tested
                      Distribution                                                Costs
   Timeframes                               Approval
                     #         %          #          %         #         %
                  Reports    Reports   Reports   Reports    Reports   Reports
      1-15          31        49%        13        21%        29       46%      $823,581        50.2%
     16-30          32        51%        2          3%        31       49%      $795,173        48.5%
     31-45                                                     1        2%       $6,175          0.4%
     46-60                                1         2%         2        3%       $15,215         0.9%

     Total          63        100%        16        25%       63       100%     $1,640,145      100%

        Since issuance of the PDC policy, Caltech itself has been aware of the need to
improve the timeliness of report distribution and verification. Specifically, a May 2005
Caltech internal audit report disclosed similar problems with PIs not always approving
and returning the PDC reports on a timely basis and recommended that Academic
Divisions continue to improve the timeliness of remitting such reports. In addition, the
Office of Cost Studies maintained statistical reports that disclosed similar timeliness
issues. However, the Caltech statistics disclosed that PDC report timeliness declined in
FY 2005 when compared to FY 2004. The statistics showed that the timeliness of PI
certification of PDC reports for NSF grants was 7 percent worse in FY 2005, with 39
percent of the reports returned late in FY 2005 compared to 32 percent late in FY 2004.
However, the timeliness issues for compiling and publishing the PDC reports remained
about the same with an average of 14 days late in FY 2004 compared to 12.5 days in FY
2005. Furthermore, our review of Caltech PDC report statistics for all Federal grants
disclosed similar timeliness issues. Specifically, in FY 2005, 39 percent of the total 466


                                               20
PDC reports on NSF grants were not certified within 30 days of distribution compared to
38 percent late for the 1007 PDC reports for all Federal grants. The details of our
analysis follow:

         Comparison of Late PDC Reports for FY 2005 Compared to FY 2004

                                      On Time
                                       PDC
                                      Reports             Late PDC Reports              Total
                                                      31-60        + 60       Total     PDC
                                     0 to 30 days     days         days       Late     Reports

            NSF Grants Only
            FY 2005                      283           152          31        183         466
              % to Total                 61%                                  39%


            FY 2004                      310           108          37        145         455
              % to Total                 68%                                  32%




           All Federal Grants
            FY 2005                      625           311          71        382         1007
              % to Total                 62%                                  38%


            FY 2004                      647           233          71        304         951
              % to Total                 68%                                  32%




         As a result of the delays in certifying employee PDC reports on NSF grants, there
is less assurance that the certification is reliable because PIs are generally relying on their
memory when approving reported work activity for themselves and the individuals that
work for them. As previously noted, Caltech officials must remember as far back as 11
months17 to confirm such employee activity at the end of the 150-day established
timeframe. Many PIs have multiple awards and many employees for whom they are
responsible, which increases the risk that the PIs’memory of the amount and type of
activities performed will be less reliable as time increases past the established time
limitations. For example, one PI informed us that he had 8 awards involved 15 graduate
students and post doctorate scholars working for him in his laboratory. Thus, limiting the
review and approval of the PDC reports to the shortest amount of time possible ensures a
more reliable certification of salary costs associated with such activity on Federal awards.

        Caltech is certainly to be commended for establishing a database for tracking the
distribution and return of its PDC reports since the system was established in October
2002. Such a database was instrumental in permitting Caltech to timely follow-up on
overdue reports by sending reminder letters to appropriate campus personnel. Also, the

17
         The amount of time certifying officials have to recall activities is 11 months because the report
period covers 6 months, compilation and distribution takes 4 months, and return is required in 1 month.


                                                     21
database allowed Caltech to account for 100 percent of its PDC reports in order to ensure
that the required certification of all salaries and wages directly charged to sponsored
projects was obtained.

        However, Caltech needed to use such management information from its database
to address the PDC timeliness issues identified with report issuance and certification.
Although report timeliness issues are well documented, Caltech has never formally and
officially notified PIs and grants management staff of the extent of the problems and the
need for improvement. Although the May 2005 Caltech internal audit report
recommended that Academic Divisions continue to improve the timeliness of remitting
PDC reports, we could find no evidence that a formal Caltech notice or memorandum
was ever issued delineating the PDC timeliness issues and emphasizing the importance
for improvement. Without such notification, it is not clear that Caltech PIs were fully
aware of their specific responsibilities for timely review and approval of PDC reports
within 30 days of distribution and the magnitude of the report timeliness issues.
Furthermore, without official Caltech management directives for improvement, Division
grants management staff lacked the leverage to emphasize to PIs the importance of timely
PDC report review and certification.

        In addition, the Office of Cost Studies has not taken any specific actions to
address the timeliness issues encountered with compiling and publishing the PDC report
within the established 120-day timeframe. Cognizant officials stated that delays occurred
because more time was required than originally anticipated to perform data validation
checks of the salary allocation information prior to forwarding it to the Office of
Information Technology for PDC report publication. Also, information technology
delays have been encountered due to problems resulting from periodic enhancement of
Caltech’s grants management system. Unfortunately, the Office of Information
Technology did not become aware of such compatibility issues until attempts were made
to compile and publish the PDC reports – causing further delays while such issues were
resolved.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

2.1    Work with Caltech to establish an internal control structure that provides for
       timely certification of payroll distribution reports for employees working on
       Federal projects. At a minimum, Caltech should take concerted management
       actions to:

       a. Formally notify Caltech senior management, PIs, and grant managers of the
          PDC report timeliness issues and emphasize the importance of timely PI
          review and certification of such reports within 30 days from distribution.




                                           22
Caltech Response

Caltech agreed to formally notify senior management, PI’s and grant managers of
the PDC report timeliness issues and emphasize the importance of timely PI
review and certification in accordance with Caltech policy. A memorandum
issued from the Provost’s office will be issued to this effect and distributed with
the next issuance of reports.

OIG Comments

Once implemented, Caltech’s response should address our audit recommendation.

b. Develop and implement a management plan with specific actions and
   milestone dates to ensure PDC reports are compiled and published within the
   established 120-day time frame and reviewed and certified within the 30-day
   turnaround time.

Caltech Response

Caltech partially concurs with the recommendation. Caltech believes it has
established mechanisms to monitor and require timely returns but will continue to
reinforce the current processes.

OIG Comments

Caltech’s proposed corrective actions generally meet the overall intent of the
audit recommendation. While we agree that current processes can be more
effectively used to achieve PI approval and return of PDC reports within the
established 30-day turnaround time period, Caltech needs to focus on developing
specific actions to ensure it compiles and distributes the reports within the
specified timeframes. For example, the University can issue reminder letters
before the 30-day timeframe to ensure timely PDC certification in lieu of waiting
until the thirtieth day has passed. Such reminder letters could be sent via email to
the PDC contact person with a copy to the cognizant PI so that he/she is aware of
the need for timely certification of the reports.




                                     23
3. Other Audit Matters
       During our review of NSF salary charges for the 32 sample employees, we
questioned $10,994 of salaries and associated fringe and indirect costs overcharged to 2
NSF grants in FY 2005 (See Appendix A for details). In addition, we recommended that
Caltech enhance internal control procedures for cost transfers between Federally-
sponsored projects because of the high risk nature of the questioned costs identified.

•   Cost Transferred to NSF Grant From An Overspent Federal Award

        OMB Circular A-21, paragraph C.4.b., states that “Any costs allocable to a
particular sponsored agreement . . . may not be shifted to other sponsored agreements in
order to meet deficiencies caused by overruns…” To ensure proper implementation of
such OMB requirements, Caltech has established a formal policy for Cost Transfers To
Federally Funded Awards to provide guidance and specific procedures for transferring
expenditures to a Federal award. The Caltech policy notes that the University and the PIs
are responsible for ensuring that qualified staff perform “regular/timely (typically
monthly) monitoring of account activity such as identification of potential cost overruns,
timely correction of errors, and reallocation of expenses” in order to properly administer
and exercise stewardship over Federally-funded projects.

         However, on January 31, 2005, Caltech transferred $6,666 of a graduate
student’s salary costs to NSF grant xxxxxxxx from an Air Force grant that had expired on
January 14, 2005 and had cost overruns of $92,499. The transfer was for 3.5 months of
the graduate student’s salary originally charged to the Air Force grant from October 1,
2004 to January 14, 2005, resulting in the graduate student’s PDC reports reflecting that
approximately 50 percent of the individual’s FY 2005 compensation was charged to the
NSF grant. Yet, she informed us that she had only devoted about 25 percent of her effort
to the subject grant during the fiscal year.

         Due to this discrepancy, we performed additional analysis of the graduate
student’s salary records for FY 2005 and interviewed the PI and the grant manager to
obtain their comments. Our analysis disclosed that for 8 of the 12 months, the graduate
student’s salary charges to Federal projects had resulted from cost transfers from other
project accounts; thus only 4 months of salary had been originally charged to the proper
Federal project. The PI stated that he reviews employee salary allocations on Federal
grants on a quarterly basis with his grant manager to determine if any reallocation of
expenses is required. According to the PI, this quarterly review is consistent with
Caltech’s established 90-day timeframe for cost transfers.

         Given the lack of what we view as sound internal controls over the graduate
student’s FY 2005 labor charges, we are questioning the $6,666 of salary costs
transferred to the NSF grant from the Air Force award. We found a lack of monthly PI
monitoring of Federal grant expenditures, an excessive number of cost transfers involving
8 of the 12 months of the individual’s annual salary, and a cost overrun situation with the
Air Force grant. Furthermore, given the current circumstances and the high risk


                                            24
associated with transferring costs from overspent Federal grants to other sponsored
projects, we believe that Caltech needs to require additional approvals and establish more
stringent criteria for the allowability of such transfers. Similar to labor cost transfers over
90 days, these types of cost transfers should require the completion of a formal Cost
Transfer and Justification Form signed by the PI, the Division Chair, and the Associate
Director of Project Accounting. Such an enhanced review and approval process will help
ensure that such transfers are not for the sole purpose of shifting grants costs in order to
meet deficiencies caused by overruns, as explicitly prohibited by OMB Circular A-21
allocability standards.

•     Documentation of PI Salary Paid by a Private Fellowship Award Not Obtained

       OMB regulations require appropriate documentation to support all grant charges.
Therefore, any labor costs charged to a sponsored project must be supported by
appointment letters or other documentation that confirms an employee’s authorized salary
or wages at the institution. However, we found that Caltech overpaid a faculty member
$1,868 in FY 2005 when the individual was on a 6-month sabbatical because
documentation for salary paid by the sponsoring organization was not obtained.
Specifically, the sponsoring organization directly paid salary to the faculty member
pursuant to a fellowship grant and Caltech agreed to pay the difference between the
individual’s Caltech salary and the amount received from the fellowship grant. Upon our
request, the faculty member provided documentation of the salary received from the
fellowship grant and it was determined that Caltech had overpaid him $1,868 during the
6-month sabbatical. Since the faculty member charged XXX percent of his salary to NSF
grant number xxxxxxxxxxx, we are questioning costs of $187.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant
audit agency, as needed, to work with Caltech to implement the following
recommendations:

3.1      Establish procedures that require that transfers of costs from overspent Federal
         grants to other sponsored projects require formal written justification and
         certification by the PI, the Division Chair, and the Associate Director of Project
         Accounting that the transfer of cost is proper and benefits the receiving award.

Caltech Response

Caltech agreed to enhance their procedures concerning the transfer of costs from
overspent Federal grants to other sponsored projects. Their goal is to have an enhanced
procedure in place by July, 2007.




                                              25
OIG Comments

Once implemented, Caltech’s response should address our audit recommendation.

3.2    Resolve the questioned salary costs and associated tuition remission, fringe
       benefit, and indirect costs totaling $15,227.

Caltech Response

Caltech agrees to resolve the questioned costs of $10,994 originally included in the draft
audit report.

OIG Comments

Subsequent to the issuance of the draft audit report, we revised the questioned costs in
order to include $4,233 of tuition remission costs associated with the graduate student’s
salary that was charged to the NSF grant. Therefore, total questioned costs were
increased to a total of $15,227.




                                            26
                                                                                             Appendix A

                 Schedule of Questioned Salaries and Wages For FY 2005

                                                        Questioned Costs
                           NSF                     Tuition     Fringe
                          Award        Salary     Remission Benefit Indirect              Total
     Employee            Number        Costs       Costs 18    Costs   Costs              Costs

 Graduate Student        xxxxxxxx      $6,666          $4,233          $0      $3,953    $14,852
 Faculty Member          xxxxxxxx        $187              $0         $49        $140       $375

                           Total       $6,853          $4,233         $49      $4,093    $15,227




18
          Tuition remission is a form of scholarship or student aid where a graduate student is relieved of
the requirement to pay tuition to the university. OMB Circular A-21 allows such costs to be charged to a
sponsored project if the student is conducting activities necessary to the sponsored project and permits such
tuition remission costs to be charged using an average rate basis.



                                                     27
Finding No. 1:
Payroll Distribution System Does Not Accurately Report Faculty Effort on Federal
Grants

Caltech appreciates the NSF’s recognition that its Payroll Distribution Confirmation
(PDC) reports “generally support the FY 2005 salary costs…charged to NSF grants” and
that Caltech “generally has a well established and sound Federal grants management
enterprise program.”

Overall, Caltech believes that its PDC system “reasonably reflect(s) the activity for which
the employee is compensated by the Institution” as required by OMB Circular A-21,
Section J10.b.2.(a)(ii).

Caltech’s position has been that pledges of time made in grant proposals are not formal
commitments to cost share. However, non-mandatory cost sharing specifically
documented in a proposal budget is considered voluntary committed cost sharing.
Voluntary committed and mandatory cost sharing is not captured in Caltech’s PDC
procedures, but instead in the Cost Sharing policy and procedures. These cost sharing
commitments are included in Caltech’s Organized Research base when calculating the
F&A rate.

In response to the recommendations set forth in this audit report, we agree to enhance our
definitions, policies, and procedures (identifying and tracking) to provide for more
accurate reporting of voluntary committed labor effort devoted by faculty members.


Recommendations:

1.1 “…establish an internal control structure that provides for a payroll distribution
    system that reasonably reflects the actual effort/activity devoted by faculty members
    on sponsored agreements.”

a. Ensure the PDC system reasonably reflects the actual activity on sponsored projects
   for which a faculty member is compensated. This should include proper reporting of
   actual PI time and effort worked on sponsored projects where:
       • Voluntary committed cost sharing of effort was explicitly pledged in grant
          proposals.
       • PI salaries were specifically proposed and included in the award budget, but
          never charged directly to the sponsored project.

       We concur. Caltech’s position has been that pledges of time made in the narrative
       of grant proposals are not formal commitments to cost share. Caltech will revise
       its policy to make clear pledges of time in the narrative of a proposal will be
       considered to be voluntary committed cost sharing whether or not reflected in the
       budget or award document. In addition Caltech will strengthen its controls to




                                            29
       reflect and report salaries that are specifically proposed but not charged to the
       project.

b. Establish a methodology for reasonably estimating and calculating an amount of
   “committed cost shared” PI effort to be reported in the PDC system for sponsored
   projects with no PI salary reimbursements. Ensure such calculated amounts are
   supported by adequate documentation and included in the organized research base
   for computing the Federal indirect cost rate.

       We concur. Caltech has submitted a revision to the FY 2005 incurred cost
       proposal to ONR to include an imputed salary calculation.

c. Establish procedures and guidance to ensure that PI committed person-months are
   accurately reported for all projects and activities, including the currently proposed
   grant, in the Current and Pending Support information submitted in NSF grant
   proposals as required by Chapter II, Paragraph C.2.h of the Foundation’s Grant
   Proposal Guide.

       We concur. The internal procedure for the review of NSF grant proposals by the
       Office of Sponsored Research will be strengthened to give greater recognition to
       the importance of checking the completeness and accuracy of the information
       included in the Current and Pending Support section of the proposal. In addition,
       the topic will be presented at a Sponsored Research Forum so that grant managers
       in the academic divisions will be made aware of the importance of this section of
       the application.

d. Establish a formal requirement for an independent evaluation of the PDC system to
   ensure its effectiveness and full compliance with OMB, NSF, and Caltech standards.
   Such a requirement should include procedures to ensure a systematic review of the
   payroll distribution system is performed to identify reasons for any deficiencies and
   to make appropriate recommendations, identify the specific office responsible for
   performing the evaluation, and how often such an evaluation should be conducted.

       We concur and have included this as a formal requirement in our policy.

Finding No. 2.
Distribution and Certification of Effort Reports Need To Be More Timely

We appreciate NSF’s recognition of the concerted efforts that have been made by Caltech
to ensure that all PDC reports are signed by the PI and returned.

While federal regulations do not dictate the frequency and timing of payroll distribution
reporting, OMB circular A-21 j.10.c.(1).(e) states that “At least annually a statement will
be signed by the employee, principal investigator , or responsible official(s) using
suitable means of verification that the work was performed….” Caltech has used this
federal guidance to develop internal guidelines for reporting.



                                            30
With regard to report distribution, we agree that it is important for the reports to be
generated and distributed in a timely manner. The delays noted in the audit report were
the result of a major system upgrade during that time period. All reports in the following
year (FY 2006) were distributed in a timely manner. We will continue to monitor and
improve report turnaround. Caltech respectfully points out that 100% of the reports were
returned within 47 days of distribution, with 94% being returned on or by day 31.

Recommendations:

2.1    “…establish an internal control structure that provides for timely certification of
       payroll distribution reports for employees working on Federal projects.”

2. Formally notify Caltech senior management, PIs, and grant managers of the PDC
   report timeliness issues and emphasize the importance of timely PI review and
   certification of such reports within 30 days from distribution.

       We concur. Caltech will formally notify senior management, PI’s and grant
       managers of the PDC report timeliness issues and emphasize the importance of
       timely PI review and certification in accordance with Caltech policy. A
       memorandum issued from the Provost’s office will be issued to this effect and
       distributed with the next issuance of reports.

3. Develop and implement a management plan with specific actions and milestone dates
   to ensure PDC reports are compiled and published within the established 120-day
   time frame and reviewed and certified within the 30-day turnaround time.

       We partially concur. As noted above, Caltech’s policy has been modified to
       establish a more realistic distribution period of 120 business days and certification
       within 30 business days. We will continue to reinforce the already established
       mechanisms to monitor and require timely returns.

2.2    Establish procedures requiring that transfers of costs from overspent Federal
       grants to other sponsored projects require formal written justification signed by
       the PI, the Division Chair, and the Associate Director of Project Accounting.

       We concur. We agree to enhance our procedures concerning the transfer of costs
       from overspent Federal grants to other sponsored projects. Our goal is to have an
       enhanced procedure in place by July, 2007.

2.3    Resolve the questioned salary costs and associated fringe benefits and indirect
       costs totaling $10,994.

       We agree to resolve the questioned costs of $10,994.




                                            31
